U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                           January 27, 2004
Office of the Inspector General, U.S. Department of Justice


        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) in the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the fourth since enactment of the legislation – summarizes the OIG’s Section
1001-related activities from June 16, 2003, through December 15, 2003.

I.     INTRODUCTION

      The OIG is an independent entity that reports to both the Attorney
General and Congress. The OIG’s mission is to investigate allegations of waste,
fraud, and abuse in DOJ programs and personnel and to promote economy
and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components.1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division provides an alternative
           mechanism to traditional audits and investigations to review
           Department programs and activities.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.




        1 On March 1, 2003, the Immigration and Naturalization Service (INS) moved from the

DOJ to the Department of Homeland Security (DHS). Consequently, the OIG’s review of
allegations of misconduct involving INS employees – including claims of civil rights and civil
liberty abuses – ended in early 2003. If the OIG receives allegations involving immigration-
related issues, including complaints about abuse of civil rights or civil liberties by employees of
the former INS, we now forward the complaints to the DHS OIG.



                                                 1
Office of the Inspector General, U.S. Department of Justice


      •   Office of Oversight and Review blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      •   Management and Planning Division assists the OIG by providing
          services in the areas of planning, budget, finance, personnel, training,
          procurement, automated data processing, computer network
          communications, and general support.

      The OIG has a staff of approximately 400 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II.   SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

             The Inspector General of the Department of Justice shall
             designate one official who shall -

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of the
                   Senate on a semi-annual basis a report on the implementation
                   of this subsection and detailing any abuses described in
                   paragraph (1), including a description of the use of funds
                   appropriations used to carry out this subsection.




                                            2
Office of the Inspector General, U.S. Department of Justice


III.   CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of
       civil rights and civil liberties by employees and officials of the
       Department of Justice.

       The OIG established the Special Operations Branch in its Investigations
Division to help manage the OIG’s investigative responsibilities outlined in
Section 1001.2 The Special Agent in Charge (SAC) who directs this unit is
assisted by two Assistant Special Agents in Charge (ASAC), one of whom
assists on Section 1001 and DEA matters and a second who assists on FBI
matters. In addition, two Investigative Specialists support the unit and divide
their time between Section 1001 and FBI/DEA responsibilities.

      The OIG receives civil rights and civil liberties complaints via mail,
e-mail, telephone, and facsimile. The complaints initially are reviewed by the
Investigative Specialist and ASAC responsible for Section 1001 matters. After
review, the complaint is entered into the OIG’s investigations database and a
decision is made concerning its disposition.

      One of the initial determinations is whether a complaint alleges the type
of abuse of civil rights and civil liberties contemplated by Section 1001 of the
Patriot Act. While the phrase “civil rights and civil liberties” is not specifically
defined in the Patriot Act, the OIG has looked to the “Sense of Congress”
provisions in the statute, namely Sections 102 and 1002, for context.
Sections 102 and 1002 identify certain ethnic and religious groups who would
be vulnerable to abuse due to a possible backlash from the terrorist attacks of
September 11, 2001, including Muslims, Arabs, Sikhs, and South Asians.

      The more serious civil rights and civil liberties allegations that relate to
actions of a DOJ employee or DOJ contractor are generally assigned to an OIG
Investigations Division field office for investigation by OIG special agents.
Other complaints are assigned to the OIG’s Office of Oversight and Review for
investigation.

       Given the number of complaints and its limited resources, the OIG does
not investigate all allegations made against DOJ employees. The OIG refers for
appropriate handling many complaints involving DOJ employees to internal
affairs offices in DOJ components, such as the FBI Office of Professional
Responsibility, the DEA Office of Professional Responsibility, and the BOP
Office of Internal Affairs. In certain referrals, the OIG requires the components
to report the results of its investigations to the OIG. In most cases, the OIG

       2This unit also is responsible for coordinating the OIG’s review of allegations of
misconduct by employees in the FBI and the DEA.



                                               3
Office of the Inspector General, U.S. Department of Justice


notifies the complainant of the referral.

       Many complaints involve matters outside the OIG’s jurisdiction because
they involve issues regarding non-DOJ employees. Complaints that identify a
specific issue for investigation are forwarded to the appropriate investigative
entity. For example, complaints of mistreatment by airport security staff are
sent to the DHS OIG. We also have forwarded complaints to the OIG at the
Department of Housing and Urban Development, Department of State, and the
Social Security Administration. In addition, we have referred complainants to a
variety of police department internal affairs offices who have jurisdiction over
the subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, OIG staff discusses
the complaint with the DOJ Civil Rights Division for possible prosecution. In
some cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution. Even in the event of a declination, the OIG may
continue investigating the complaint as an administrative matter. 3

       A.       Complaints Processed this Reporting Period

       From June 14, 2003, through December 15, 2003, the period covered by
this report, the OIG processed the following number and types of complaints:

            •   Number of complaints processed suggesting a Section 1001-related
                civil rights or civil liberties connection:4 1,266

            •   Number of “unrelated” complaints:5 720



       3  The OIG can pursue an allegation either criminally or administratively. Many OIG
investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.

        4 This number includes all complaints in which the complainant makes any mention of

a Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s or the DOJ’s jurisdiction.

       5 Complaints in this category cite no improper act by a DOJ employee or contractor or

no discernible nexus between the alleged conduct of the DOJ employee/contractor to any
Section 1001-related civil rights or civil liberties violation. Examples of this category include
complaints that the government is broadcasting harmful electronic signals to individuals,
claims that the government is intercepting dreams, and allegations that the government is
using subliminal messages to force people to engage in certain acts.


                                                  4
Office of the Inspector General, U.S. Department of Justice


           •   Number of complaints outside the OIG’s jurisdiction:6 384

           •   Number of complaints within the OIG’s jurisdiction: 162

           •   Number of complaints within the OIG’s jurisdiction in which the
               OIG or another internal affairs office within a DOJ component
               opened an investigation or conducted a closer review: 17

       The 162 complaints processed by the OIG during this reporting period
that fell within the OIG’s jurisdiction (i.e., that state a claim involving a DOJ
component or employee) covered a wide variety of subjects. They included
allegations of excessive force and verbal abuse by BOP correctional officers,
unwarranted cell searches by BOP staff, retaliatory actions by BOP employees,
illegal searches of property and fabrication of evidence by FBI agents, and the
failure of the FBI to initiate investigations.

       However, many of the 162 complaints in this category, while within the
OIG’s jurisdiction and couched as a “civil rights” complaint, did not raise
issues implicated by our duties under Section 1001. For example, the OIG
received numerous complaints from inmates alleging that they have not
received appropriate medical care or were given food that violated their
religious dietary restrictions.

     None of the 162 matters involved complaints alleging misconduct by DOJ
employees related to their use of a substantive provision in the Patriot Act.

      After closely analyzing the complaints in this category, the OIG identified
17 matters that warranted opening an investigation or conducting a closer
review. These complaints, which varied in seriousness, included allegations of
excessive force against BOP inmates, verbal abuse of inmates, denying inmates
access to the law library and telephone calls, unreasonable prison cell
searches, and placement in solitary confinement for no apparent reason.




        6 These complaints generally cite issues that involve other federal agencies, state

governments, local law enforcement agencies, or private businesses. Examples include
allegations that local law enforcement officers used excessive force or entered a home without a
search warrant; allegations of retaliation, unfair labor practices, discrimination, or other civil
rights violations by federal agencies outside the DOJ; or allegations of rude treatment by INS or
airport inspectors. We refer these complaints to the appropriate entity.



                                                5
Office of the Inspector General, U.S. Department of Justice


        B.    Section 1001 Cases this Reporting Period

              1. Complaints Investigated by the OIG

                 a. New matters

      During this reporting period, the OIG opened two new Section 1001-
related investigations, continued eight ongoing Section 1001-related cases, and
closed four Section 1001 investigations. The two new matters opened by the
OIG alleging Section 1001-related civil rights and civil liberties abuses by DOJ
employees during this reporting period are:

   •    The OIG is investigating allegations raised by a Muslim inmate that he
        was subjected to verbal abuse, discrimination, and anti-Islamic
        sentiment that has intensified since September 11, 2001. The inmate
        also complained he was transferred to another BOP facility in retaliation
        for filing complaints against BOP correctional officers.

   •    The OIG opened a preliminary inquiry into allegations received from an
        individual who alleged that he was abused by FBI agents and INS
        detention officers from his arrest in March 2002 until he was deported in
        April 2002.

                 b. Examples of cases opened during the previous
                    reporting periods that the OIG has continued to
                    investigate

    •   The OIG is investigating claims by an Egyptian national that the FBI
        improperly arrested and detained him immediately following the
        September 11 attacks and that during his detention his civil rights and
        civil liberties were violated. According to the Egyptian national, while
        held at a BOP facility he was forced to undergo an invasive body cavity
        search in the presence of numerous people, including a woman. To
        date, the OIG interviewed the Egyptian national and approximately 50
        BOP employees who had contact with the detainee during his detention.

    •   The OIG is investigating claims that a BOP correctional officer verbally
        and physically abused an inmate while he was being transported to the
        prison’s hospital and that the inmate was placed in solitary confinement
        after the incident. This case has been referred to the Civil Rights
        Division for prosecutive decision.

    •   The OIG investigated allegations that FBI agents conducted an illegal
        search of an Arab-American’s apartment and during the search they
        vandalized the apartment, stole items, and called the complainant a


                                            6
Office of the Inspector General, U.S. Department of Justice


            terrorist. According to the complainant, even though the FBI found no
            evidence linking him to terrorism, approximately four months later the
            FBI recruited an acquaintance of his to plant drugs in the complainant’s
            home. FBI agents then arrived at the complainant’s home and
            conducted a consent search and arrested the complainant after finding
            drugs. During the complainant’s interview by the OIG, however, he
            admitted that the cocaine discovered could have been his and that he
            did not believe the FBI was involved in planting evidence. The OIG has
            completed its review of this matter and is drafting its report of
            investigation.

    •       The OIG is investigating allegations that Muslim inmates at a BOP
            facility have been targeted for disciplinary actions and subjected to
            disparate treatment by correctional officers. Specifically, the
            complainant alleges that certain members of the facility’s staff take
            retaliatory actions against the Muslim inmates on a regular basis.

    •       The OIG is investigating allegations that unidentified correctional
            officers and the warden of a BOP facility threatened to “gas” inmates
            subsequent to the September 11 attacks. It was further alleged that
            these unidentified correctional officers and the warden have retaliated
            against the inmate complainant for making the allegations. The OIG is
            drafting its report of investigation.

    •       The OIG is investigating allegations that a detainee was assaulted at an
            INS contract facility. The detainee was involved in a verbal exchange
            with a correctional officer and allegedly was struck in the eye, pushed to
            the floor, and sprayed with pepper spray. The following day, the
            detainee was taken to a local hospital emergency room for treatment.
            The detainee suffered a black eye and back pain. The detainee has since
            been deported from the United States.7

                    c. OIG investigations closed during this reporting period

    •       The OIG investigated claims that an INS Supervisory Detention
            Enforcement Officer (SDEO) entered a gas station operated by an Arab-
            American and demanded paper towels. When the attendant replied that
            he did not have paper towels, the SDEO displayed his credentials, asked
            the attendant if he was American, and requested his immigration
            documents. The investigation also revealed that the SDEO requested a
            colleague to query an immigration database for information on the
            attendant. Our investigation concluded that the SDEO improperly
            displayed his credentials for other than official purposes and

        The OIG began this investigation before INS was moved from the Department to the
        7

DHS and retained the matter after the transfer in order to complete the investigation.


                                             7
Office of the Inspector General, U.S. Department of Justice


        inappropriately caused an INS database to be queried. We provided our
        report of investigation to the DHS for appropriate action.

    •   The OIG investigated allegations that a BOP correctional officer used
        excessive force and failed to follow BOP policy in handling and
        restraining a Muslim inmate when the inmate was removed from his cell
        to be escorted to the Medical Unit for examination. The investigation did
        not reveal sufficient evidence to conclude that the correctional officer
        used excessive force to restrain the inmate. However, the OIG
        concluded that the correctional officer used poor judgment in handling
        the inmate and failed to follow BOP policy when the correctional officer
        immediately entered the inmate’s cell and used force to subdue the
        inmate instead of waiting for assistance and preparing a plan for a safer
        entry into the cell. The OIG provided its findings to the BOP for
        appropriate action.

    •   During the previous reporting period, the OIG opened an investigation
        based on allegations raised by approximately 20 inmates that a BOP
        correctional officer verbally abused inmates with ethnic and racial slurs
        and inappropriate comments. After the BOP facility’s investigation
        concluded that the allegations were unsubstantiated, BOP’s Office of
        Internal Affairs (OIA) referred the matter to the OIG. When the OIG
        interviewed the correctional officer, he admitted to not being completely
        candid with the investigators, to verbally abusing the Muslim inmate,
        and to throwing the inmate’s Koran into the trashcan. The OIG provided
        its findings to the BOP for appropriate action.

    •   The OIG investigated allegations that an INS detention enforcement
        officer held a loaded gun to a detainee’s head and threatened the
        detainee while transferring him to another detention facility. The OIG
        interviewed the detainee and the two detention enforcement officers who
        were transporting the detainee but could not substantiate the
        allegations due to conflicting accounts.

             2. Complaints Referred to Other Components

      During this reporting period, 15 of the 17 complaints were referred to
internal affairs offices within DOJ components for investigation or for closer
review. One of the 15 complaints was referred to the FBI. The complainant in
that matter alleged that he was inappropriately subjected to surveillance by the
FBI. The FBI determined that the allegation was without merit and closed the
matter.

      Fourteen of the 15 complaints were referred to the BOP this reporting
period. They included allegations that BOP staff used excessive force and


                                            8
Office of the Inspector General, U.S. Department of Justice


verbally abused Muslim inmates; ignored requests for medical treatment;
executed excessive searches of Muslim inmates’ cells because of their religious
beliefs; and denied Muslim inmates access to television, radio, books, and
newspapers.

       The 14 complaints sent to the BOP were designated by the OIG as
“Monitored Referrals,” which means that the BOP is required at the end of its
investigation to send a report of the investigation to the OIG for its review. Of
the 14 complaints, the BOP closed five matters during the reporting period,
while nine matters remain open. The BOP closed four of the five as
unsubstantiated and the fifth because the subject was terminated from his
position as a correctional officer during his probationary period.

       In our previous Section 1001 report, we described a complaint that was
sent to the DEA alleging that DEA agents conducted an illegal search of an
Arab-American’s home and confiscated the family’s passports and personal
property, even though nothing illegal was found during the search. DEA OPR
conducted an investigation of this matter and determined the allegations were
unsubstantiated. The investigation also revealed that the complainant was
charged by the DEA in connection with a drug investigation and is currently a
fugitive from justice.

      C.     Other OIG Activities Related to Allegations of Civil Rights
             and Civil Liberties Abuses

      The OIG has conducted activities that go beyond the explicit
requirements of Section 1001 in order to more fully implement its civil rights
and civil liberties responsibilities. Given the multi-disciplinary nature of its
workforce, the OIG can extend its oversight beyond traditional investigations to
include evaluations, audits, and special reviews of DOJ programs and
personnel. Using this approach, the OIG has conducted several special
reviews, including an in-depth inquiry into allegations that aliens detained in
connection with the investigation of the September 11 attacks were physically
and verbally abused by some correctional officers at the Metropolitan Detention
Center in Brooklyn, New York.

             1.    Supplemental Report on September 11 Detainees’
                   Allegations of Abuse at the Metropolitan Detention Center
                   in Brooklyn, New York

       On December 18, 2003, the OIG issued a report that examined in detail
allegations made by detainees held in connection with the Department’s
terrorism investigation that some correctional staff members at the
Metropolitan Detention Center (MDC) physically and verbally abused detainees.
The report supplemented a comprehensive review released by the OIG in
June 2003 that examined how the Department handled 762 detainees held on


                                            9
Office of the Inspector General, U.S. Department of Justice


immigration charges in connection with the investigation of the terrorist
attacks, including their processing, their bond decisions, the timing of their
removal from the United States, their access to counsel, and the conditions of
their confinement.8

       In Chapter 7 of the Detainee Report, the OIG described the treatment of
the September 11 detainees at the MDC and concluded that the conditions
were excessively restrictive and unduly harsh. We also concluded that
evidence showed some MDC correctional officers physically and verbally
abused some detainees, particularly during the months immediately following
the September 11 attacks. However, we noted in the Detainee Report that
while federal prosecutors had declined criminal prosecution in this matter, the
OIG’s administrative investigation of physical and verbal abuse at the MDC was
still ongoing.

       The December 2003 Supplemental Report details our findings and
conclusions from this supplemental review. We concluded that certain MDC
staff members did abuse some of the detainees. We did not find evidence that
the detainees were brutally beaten, but we found evidence that some officers
slammed and bounced detainees against the wall, twisted their arms and
hands in painful ways, stepped on their leg restraint chains, and punished the
detainees by keeping them restrained for long periods of time. We concluded
that the way these MDC staff members handled detainees was, in many
respects, unprofessional, inappropriate, and in violation of BOP policy.

      In addition, we found systemic problems in the way detainees were
treated at the MDC, including staff members’ use of a t-shirt taped to the wall
in the facility’s receiving area designed to send an inappropriate message to
detainees, audio taping of detainees meetings with their attorneys, unnecessary
and inappropriate use of strip searches, and banging on detainees’ cell doors
excessively while they were sleeping.

      During our investigation, we examined approximately 30 detainees’
allegations of physical and verbal abuse against approximately 20 MDC staff
members. In our review of these allegations, we interviewed more than 115
individuals, including detainees, MDC staff members, and others. The staff
members primarily were correctional officers who had been assigned to the
Administrative Maximum Special Housing Unit or ADMAX SHU, the high-
security wing of the MDC that housed the September 11 detainees, or staff
members who were involved in escorting the detainees on and off the ADMAX
SHU.

       8  “The September 11 Detainees: A Review of the Treatment of Aliens Held on
Immigration Charges in Connection with the Investigation of the September 11 Attacks”
(“Detainee Report”), issued June 2, 2003. On June 25, 2003, the Inspector General testified
before the U.S. Senate Committee on the Judiciary regarding the Detainee Report.


                                             10
Office of the Inspector General, U.S. Department of Justice


       We also reviewed MDC videotapes, including hundreds of tapes showing
detainees being moved around the facility and tapes from cameras in detainees’
cells. During the course of our investigation, MDC officials repeatedly told us
that videotapes of general detainee movements no longer existed. That
information was inaccurate. In late August 2003, the OIG discovered more
than 300 videotapes at the MDC spanning the period from October through
November 2001.

       The OIG developed evidence that approximately 16 to 20 MDC staff
members, most of whom were assigned to the ADMAX SHU, violated BOP
policy by physically or verbally abusing detainees. We considered “physical
abuse” to be the handling of the detainees in ways that physically hurt or
injured them without serving any correctional purpose. Similarly, we
considered “verbal abuse” to be insults, coarse language, and threats to
physically harm or inappropriately punish detainees, all of which violate BOP
policies.

        For example, the videotapes showed compliant detainees being slammed
or rammed against the wall, pressed by their heads or necks, and having their
fingers or hands twisted, despite officers’ denials that this ever occurred and
despite statements by senior BOP officials that such actions were not
appropriate. The videotapes also confirm that officers placed detainees against
an American flag t-shirt with the phrase “These colors don’t run,” which was
taped to the wall in the sally port area where detainees first arrived at the
MDC. This t-shirt remained in place for many months, despite officers’ denials
of its existence or claims that it was removed after a short period of time.

       Moreover, the videotapes showed that some MDC staff members misused
strip searches and restraints to punish detainees and revealed that officers
improperly recorded detainees’ meetings with their attorneys.

       We provided the results of our investigation to managers at BOP
Headquarters for their review and appropriate disciplinary action. In the report
to the BOP, we included an Appendix identifying current and former staff
members who we believe committed misconduct, and we describe the specific
evidence against them. In the Appendix, we also described allegations against
specific officers that we did not substantiate. It is important to note that these
allegations were not against all staff members at the MDC, and that many MDC
officers performed their duties in a professional manner under difficult
circumstances in the aftermath of the September 11 terrorist attacks.

      In the Appendix (which was not released publicly because of privacy
interests and the ongoing consideration of discipline against specific officers),
we recommend that the BOP take disciplinary action against 10 current BOP
employees, counsel 2 current MDC employees, and inform employers of 4
former MDC staff members about our findings against them.


                                           11
Office of the Inspector General, U.S. Department of Justice


      In the report, we made seven recommendations to the BOP, ranging from
developing guidance to train correctional officers in appropriate restraint
techniques to educating BOP staff concerning the impropriety of audio
recording meetings between inmates and their attorneys.

             2.   Analysis of Responses to Recommendations in Detainee
                  Report

      In Chapter 9 of the Detainee Report, the OIG made 21 recommendations
related to issues under the jurisdiction of the FBI, the BOP, leadership offices
at the DOJ, as well as immigration issues now under the jurisdiction of DHS.
During the reporting period, the OIG analyzed two sets of responses from the
Department to our recommendations in the Detainee Report and one set from
the DHS.

      The OIG received written responses to the 21 recommendations from the
Deputy Attorney General on behalf of the DOJ on July 21, 2003, and from the
Under Secretary for Border and Transportation Security on behalf of the DHS
on August 4, 2003. On September 5, 2003, we issued an analysis of the
responses of both the DOJ and the DHS. The OIG’s analysis concluded that
both agencies appeared to be taking the recommendations seriously and were
taking steps to address many of the concerns raised by the Detainee Report.
The OIG’s analysis concluded, however, that many of the recommendations
were not addressed with sufficient specificity and significant work remained
before the recommendations were fully implemented. For several of the
recommendations, the OIG requested additional information regarding the
DOJ’s proposed action to address the recommendations.

      On November 20, 2003, the DOJ submitted to the OIG a second
response to the recommendations that related to issues under the DOJ’s
jurisdiction. The DOJ’s second response provided additional information and
an update on the steps that the DOJ and its components were taking to
implement the OIG’s recommendations. The second response also included
three attachments from the BOP describing policies it had adopted to address
the OIG’s recommendations.

      The OIG analyzed the DOJ’s second response and in a report issued on
January 6, 2004, concluded that the DOJ has taken significant and
responsible steps to implement the OIG’s recommendations. For example:

   •   The OIG had recommended that the FBI develop clearer and more
       objective criteria to guide its classification decisions in future cases
       involving mass arrests of illegal aliens in connection with terrorism
       investigations. The DOJ’s second response described how decisions will
       be made to determine whether someone is “of interest” to the FBI, and



                                           12
Office of the Inspector General, U.S. Department of Justice


       also described a protocol on how that decision will be made. In making
       its initial decision, the FBI stated that it will rely on information from a
       variety of sources, including the Terrorist Threat Integration Center and
       the Terrorist Screening Center.

   •   The OIG had recommended that the FBI should provide the DHS and
       BOP with a written assessment of an alien’s likely association with
       terrorism shortly after an arrest, preferably within 24 hours. The DOJ
       agreed with our recommendation to provide an assessment of an alien’s
       suspected association with terrorism “as expeditiously as possible.” It
       stated that it may not be possible to do so within 24 hours in all cases,
       but said if the initial statement of interest is oral, the FBI will provide a
       written statement as soon as possible thereafter.

   •   Given the highly restrictive conditions under which the BOP housed
       some of its September 11 detainees, and the slow pace of the FBI’s
       clearance process, we had recommended that the BOP consider requiring
       written assessments from immigration authorities and the FBI prior to
       placing aliens arrested solely on immigration charges into highly
       restrictive conditions of confinement. Absent such a particularized
       assessment from the FBI and immigration authorities, we recommended
       that the BOP apply its traditional inmate classification procedures to
       determine the level of secure confinement required by each detainee.
       The DOJ response stated that the FBI will provide either a verbal or
       written statement to the BOP and DHS as to their interest in a detainee.
       The response further provided that in the absence of this statement, the
       BOP will apply its traditional inmate classification procedures to
       determine the level of secure confinement required by each detainee.

   •   The OIG had recommended that the BOP issue new procedures requiring
       that videotapes of detainees with alleged ties to terrorism who are housed
       in high security areas be retained for longer than the 30 days that was
       required at the time our Detainee Report was issued. The DOJ response
       described a new BOP policy that requires staff to retain for six months
       videotapes that depict routine inmate movements outside cells and BOP
       officers’ entrances into the cells of inmates who are confined pursuant to
       national emergencies.

      Because immigration enforcement responsibilities have been transferred
from the DOJ to the DHS, the DHS OIG is now responsible for monitoring the
DHS’s implementation of the recommendations contained in the Detainee
Report relating to immigration issues.




                                           13
Office of the Inspector General, U.S. Department of Justice


             3. Review of the BOP’s Process for Selecting Muslim Clerics

       The OIG is examining the procedures used by the BOP to select Muslim
personnel, contractors, and volunteers who provide religious services to
inmates. We initiated this review in response to a request from a U.S. Senator
expressing concern that the BOP relies solely on two organizations that
allegedly have connections to terrorism to endorse Muslim cleric candidates as
qualified religious leaders. The OIG review is examining whether the BOP’s
process for selecting Muslim religious service providers effectively screens
candidates to ensure that extremist groups do not become religious service
providers in the BOP.

             4. Review of the FBI's Implementation of Attorney
                General Guidelines

       In May 2002, the Attorney General issued revised domestic Guidelines
that govern general crimes and criminal intelligence investigations. In
May 2003, approximately one year after the revised Guidelines had been in
effect, the OIG began a review of the FBI’s implementation of the four sets of
Guidelines: Attorney General’s Guidelines Regarding the Use of Confidential
Informants; Attorney General’s Guidelines on FBI Undercover Operations;
Attorney General’s Guidelines on General Crimes, Racketeering Enterprise and
Terrorism Enterprise Investigations; and Revised Department of Justice
Procedures for Lawful, Warrantless Monitoring of Verbal Communications.

        The objectives of the OIG review are to determine what steps the FBI has
taken to implement the Guidelines, examine how effective those steps have
been, and assess the FBI’s compliance with key provisions of the Guidelines.
Because the FBI’s adherence to these Guidelines could implicate civil rights or
civil liberties issues under Section 1001, we are including a description of this
review in our report.

IV.   ADVERTISING RESPONSIBILITIES

      Make public through the Internet, radio, television, and newspaper
      advertisements information on the responsibilities and functions of,
      and how to contact, the official.

       The OIG continues to meet its Section 1001 advertising requirements in
a variety of ways.




                                           14
Office of the Inspector General, U.S. Department of Justice


      A.     Internet

       The OIG’s website contains information about how individuals can report
violations of their civil rights or civil liberties. The OIG also continues to
promote an e-mail address – inspector.general@usdoj.gov – where individuals
can send complaints of civil rights and civil liberties violations.




      The OIG previously developed a poster, translated in Arabic, that
explains how to file a civil rights or civil liberties complaint with the OIG.
An electronic version of this poster is available on our website.

      The DOJ’s main Internet homepage contains a link that provides a
variety of options for reporting civil rights and civil liberties violations to the
OIG. The Civil Rights Division’s website also describes the OIG’s role in
investigating allegations of misconduct by DOJ employees and provides
information on how to file a complaint with the OIG.

        In addition, several minority and ethnic organizations have added
information to their websites about how to contact the OIG with civil rights and
civil liberties complaints. For example, the Arab American Institute


                                           15
Office of the Inspector General, U.S. Department of Justice


(www.aaiusa.org), an organization that represents Arab Americans’ interests
and provides community services, added the OIG’s Section 1001 poster to its
website of information and resources for the Arab American community. The
Institute also has informed its members and affiliates of the OIG’s Section 1001
responsibilities through its weekly e-mail newsletter. Similarly, the American-
Arab Anti-Discrimination Committee (ADC), one of the largest Arab American
organizations in the nation, has posted the OIG’s contact information and
Section 1001 responsibilities on its website, which at one time averaged more
than 1 million hits per month. The ADC also has published the OIG’s Section
1001 responsibilities in its magazine, the ADC Times, which is circulated to
more than 20,000 people. Furthermore, the OIG’s Arabic poster and Section
1001 responsibilities have been disseminated electronically by the Council on
American Islamic Relations LISTERV and the National Association of Muslim
Lawyers LISTSERV.

      B.     Television

       During this reporting period, the OIG arranged to have the following
television advertisement aired with the text spoken in Arabic and scrolled in
English:

The Office of the Inspector General investigates allegations of civil rights and civil
liberties abuses by U.S. Department of Justice employees. If you believe a
Department of Justice employee has violated your civil rights or civil liberties,
contact the Inspector General at 800-869-4499. That number again is 800-869-
4499.

       The OIG purchased blocks of time on ANA Television Network, Inc., an
Arab cable television station with outlets around the country. According to the
promotional materials, ANA Television Network is the largest Arab-American
television network in the country and broadcasts news and entertainment
24 hours a day. The segment was aired 48 times, during prime time, from
June 5, 2003, through July 22, 2003.

      C.     Radio

      During the reporting period, the OIG submitted public service
announcements to 45 radio stations in cities across the country, including New
York, Los Angeles, Sacramento, Chicago, Detroit, Houston, Dallas, and
Washington, D.C. The text of the PSA read:

The Office of the Inspector General investigates allegations of civil rights and civil
liberties abuses by U.S. Department of Justice employees. If you believe a
Department of Justice employee has violated your civil rights or civil liberties,
contact the Inspector General at 800-869-4499.



                                           16
Office of the Inspector General, U.S. Department of Justice


      We also purchased airtime for 44 radio advertisements on Arab/Muslim
American radio stations in New York, Chicago, Los Angeles, Detroit, and
Dallas. These advertisements, which ran in late 2003, were 60 seconds long
and included the same script listed above both in English and Arabic.

      D.     Posters

       Previously, the OIG disseminated approximately 2,500 Section 1001
posters to more than 150 organizations in 50 cities. The posters, in English
and Arabic, explain how to contact the OIG to report civil rights and civil
liberties abuses.

      In an earlier reporting period, we also provided the posters to the BOP,
which has placed at least two in each of its facilities. In addition, we had
provided approximately 400 posters to INS officials prior to the agency’s
transfer from the DOJ for distribution to its offices across the country. If the
posters generate complaints about immigration officials, as of March 1, 2003,
we have forwarded these allegations to the DHS OIG.




                                           17
Office of the Inspector General, U.S. Department of Justice




      E.     Newspapers

      The OIG is making arrangements to purchase a second round of
advertisements in one newspaper highlighting its role in investigating
allegations of civil rights and civil liberties abuses. This time, the display



                                           18
Office of the Inspector General, U.S. Department of Justice


advertisements will be placed in an Arab community newspaper.
Advertisements will appear both in English and Arabic.

      F.     Flyers

       With the assistance of the FBI’s Language Services Department, the
OIG developed flyers in Urdu and Punjabi, which after Arabic are the two most
commonly spoken Arab languages. Flyers also were translated into Spanish
and Vietnamese, and the FBI is preparing a translation into Indonesian. These
flyers will be distributed to organizations that work with the respective
communities to inform them of the OIG’s Section 1001 responsibilities. In
addition, we intend to provide all the flyers to the BOP and request that they be
made available to incoming inmates in their native languages.




                                           19
Office of the Inspector General, U.S. Department of Justice




 REPORT
 CIVIL RIGHTS & CIVIL LIBERTIES ABUSES

                                                        The Office of the Inspector General
                                                        (OIG), U.S. Department of Justice,
                                                        investigates allegations of civil rights
                                                        and civil liberties abuses by
                                                        Department of Justice employees in
                                                        the FBI, DEA, ATF, Federal Bureau
                                                        of Prisons, U.S. Marshals Service,
                                                        U.S. Attorneys Offices, and all other
                                                        Department of Justice agencies.

                                                        If you believe a Department
                                                           of Justice employee has
                                                        violated your civil rights or
                                                        civil liberties, you may file a
                                                        complaint with the OIG by:

                                                        mail: Civil Rights & Civil Liberties Complaints
                                                              Office of the Inspector General
                                                              U.S. Department of Justice
 mail: Civil Rights & Civil Liberties Complaints              950 Pennsylvania Avenue, NW
       Office of the Inspector General                        Washington, D.C. 20530
       U.S. Department of Justice
       950 Pennsylvania Avenue, NW
       Washington, D.C. 20530
                                                        e-mail: inspector.general@usdoj.gov

 e-mail: inspector.general@usdoj.gov                    or fax: (202) 616-9898
 or fax: (202) 616-9898

 For more information, call (800) 869-4499 or           For more information, call (800) 869-4499 or
 visit the OIG’s website at www.usdoj.gov/oig           visit the OIG’s website at www.usdoj.gov/oig


                                                   20
Office of the Inspector General, U.S. Department of Justice


V.    ADDITIONAL OUTREACH AND TRAINING EFFORT

       In addition to media advertisements, the OIG is reaching out in other
ways to educate the public and its own employees about its Section 1001
responsibilities. For example, on June 26, 2003, an OIG Special Agent in
Charge attended training sponsored by the DOJ’s Community Relations Service
entitled “Building Cultural Competency: Arab, Muslim and Sikh Americans.”
This day-long program was designed to assist the attendees to understand
cultural issues relating to the Arab, Muslim, and Sikh communities in the
United States and to provide guidance for training others.

      We are also developing a guide in question/answer format to assist
individuals in understanding the OIG’s Section 1001 responsibilities, our
jurisdiction, and how to make a complaint. This guide will be posted on the
OIG’s website.

VI.   EXPENSE OF IMPLEMENTING SECTION 1001

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

      During this reporting period, the OIG spent approximately $415,000 in
personnel costs, $13,400 in travel costs, and $8,000 in advertising and
publication costs, for a total of more than $436,500 to implement its
responsibilities under Section 1001. The personnel and travel costs reflect the
time and funds spent by OIG Special Agents, inspectors, and attorneys who
have worked directly on investigating Section 1001-related complaints and
special reviews.




                                           21
